ES, IG-99-005, Space Station Correction Action Plans
SPACE STATION
CORRECTIVE ACTION PLANS
IG-99-007
Executive Summary
Background
In January 1995, the Lyndon B. Johnson Space Center (Johnson) signed a
$5.638 billion contract(1) with The Boeing Company (Boeing) for the
International Space Station (Space Station).  The Space Station contract
includes requirements for the design, development, manufacture, integration,
test, verification, and delivery to NASA of the U.S. On-Orbit Segment(2) of
the Space Station.  In accordance with the terms of the contract, Boeing
prepares a monthly Performance Measurement System Report (PMSR), which
provides cost and schedule performance data.(3)  The Space Station Program
Office (Program Office) uses the PMSR to help manage the Space Station
Program, to assess performance trends, and to provide data on areas that
need management attention.  Part of the PMSR is the Variance Analysis
Report, which Boeing uses to identify problems, monitor progress, record
corrective action plans, and report results to management.  Appendix B
contains the requirements for the Variance Analysis Report.
Objectives
Our objectives were to assess the adequacy of corrective action
plans by Boeing and Boeing Development Sites, as identified in the PMSR, for
addressing Space Station cost and schedule variances and to assess the
Government's oversight of the plans.  Appendix A contains additional details
on objectives, scope, and methodology.
Results of Audit
Boeing's corrective action plans and Johnson's oversight of the plans need
improvement.  The Space Station Program has experienced a continued
deterioration in cost and schedule performance after a September 1997
adjustment of the contract cost baseline,(4) but variance analyses and
corrective action plans have not been effectively utilized to control the
negative variances.  Additionally, Johnson did not provide effective
oversight of Government surveillance of the Earned Value Management System,
including the verification of corrective actions related to cost and
schedule variances.  As a result, the Space Station Program lacked assurance
that negative variances were identified and corrective actions were taken to
reduce associated risk (see Finding A).  Further, Johnson did not ensure
that Boeing took corrective actions on conditions noted since at least
March 1997 to properly prepare and submit Variance Analysis Reports.  As a
result, Variance Analysis Reports may not adequately identify cost and
schedule risks (see Finding B).
Other Matters of Interest
Boeing Huntington Beach did not properly classify in its March 1998 PMSR
$64.4 million of the $76.9 million estimated cost variance (overrun) at
contract completion.  As a result, Boeing did not prepare corrective action
plans to include identifying the risks associated with the $64.4 million in
estimated overruns.  In September 1998, we discussed our audit results with
Program Office officials.  They took prompt corrective action to direct
Boeing to properly classify estimated variance at contract completion.
Additional details are in Appendix C.
Recommendations
NASA should ensure effective surveillance of the Earned Value Management
System and direct Boeing to improve the quality of corrective action plans
identified in Variance Analysis Reports.
Management's Response
Management concurred with the recommendations and stated it was taking
action to correct the reported weaknesses.  Management reported that
personnel were in place at Johnson and at Defense Contract Management
Command (DCMC), Boeing Huntington Beach, to ensure that reporting
requirements are achieved and to provide adequate surveillance of the
Earned Value Management System.
Evaluation of Management's Response
Management's planned and completed actions are responsive except for the
requirement for DCMC, Boeing Huntington Beach, to provide adequate
surveillance of the Earned Value Management System by personnel who have
attained the required competencies and have completed the required courses.
Specifically, management has not requested that DCMC provide an Earned Value
Management System Surveillance Monitor who has attained Level II
Certification and has completed courses in Contractor Performance
Management Fundamentals and Intermediate Contractor Performance Management.
We request that management further review its position on this matter and
provide additional comments.
FOOTNOTES
1.  As of December 2, 1998, the value of contract NAS15-10000 was $7.227 billion.
2.  The U.S. On-Orbit Segment of the Space Station includes several U.S. elements to be deployed.
3.  In addition to Boeing Houston, Texas (the prime contractor), the Boeing Development Sites that prepare a PMSR and contribute to the summary PMSR for the Space Station Program are Boeing Canoga Park, California; Boeing Huntington Beach, California; and Boeing Huntsville, Alabama.
4.  The adjustment of the contract baseline eliminated all cost and schedule variances (see Appendixes C and D).